April 7, 2009

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

DOUGLAS A. TULINO
VICE PRESIDENT, LABOR RELATIONS

WILLIAM J. SCHNAARS
MANAGER, NEW YORK DISTRICT

SUBJECT: Audit Report – Custodial Maintenance: New York District
         (Report Number DA-AR-09-007)

This report presents the results of our audit of custodial maintenance operations in the
New York District (Project Number 08YG030DA000). The U.S. Postal Service Office of
Inspector General (OIG) initiated this audit because the New York District was one of
the top three districts consuming overtime for custodial maintenance during fiscal year
(FY) 2008. Our objective was to determine whether the U.S. Postal Service uses its
custodial maintenance resources in the most effective and efficient way in the New York
District. See Appendix A for additional information about this audit.

The Postal Service Can Reduce Custodial Maintenance Labor Hours

Processing facilities in the New York District perform custodial maintenance tasks an
average of nearly 7 days a week, which requires maximum staff resources. This
condition is less prevalent for stations in the district. However, many scheduled
cleaning tasks overlap a lighter form of cleaning called policing, and the two are largely
duplicative.

This occurred because staffing packages were not updated annually as required by
Postal Service policy1 and managers in the New York District scheduled cleaning more
than the minimum frequency established by the guidelines. As a result, the New York
District consumed more cleaning hours than necessary. If local management reduced
the cleaning frequency from 7 to 4 days to allow for cleaning every other day and
eliminated the duplication of cleaning activities, the sites we reviewed would save
$38,490,629 over 10 years, while maintaining an acceptable standard of cleanliness
and safety.




1
    Maintenance Services (MS-47), Housekeeping Postal Facilities, June 1983.
Custodial Maintenance: New York District                                                                  DA-AR-09-007



We recommend the Manager, New York District, direct maintenance managers within
the New York District to:

1. Update staffing packages to eliminate duplication in cleaning operations, to include
   an adjustment of cleaning frequencies as determined by local conditions.

The Postal Service Can Reduce Custodial Maintenance Labor Costs

Larger Postal Service facilities in the New York District incur increased costs for
custodial services. This occurs because hourly rates for full-time employees in the
district are $10 higher than prevailing contractor rates. This condition exists because
the collective bargaining agreement between the Postal Service and the American
Postal Workers Union (APWU)2 restricts the utilization of contract cleaning services to
smaller Postal Service facilities. By continuing to restrict contracted custodial services
to small facilities, the New York District will incur an additional $9,777,316 in costs over
the next 10 years for cleaning services. The Postal Service has an opportunity to
negotiate the removal of this restriction in the new collective bargaining agreement to
realize savings as positions become available through attrition. However, we
acknowledge that the cooperation and agreement of the APWU are needed to achieve
these savings. See Appendix B for our detailed analysis of this topic.

Given the change in business conditions, we recommend the Vice President, Labor
Relations, in coordination with the Vice President, Engineering:

2. Review the benefits of extending contract eligibility to larger Postal Service facilities
   for inclusion in the next collective bargaining agreement beginning November 21,
   2010, and subsequently utilize contract staffing to fill custodial positions lost through
   attrition.




2
  The duration of the current agreement is November 21, 2006, through November 20, 2010. Small Postal Service
facilities are defined by a formula that incorporates a calculation of interior and exterior square footage. This formula
is a part of the collective bargaining agreement.




                                                            2
Custodial Maintenance: New York District                                       DA-AR-09-007



Management’s Comments

Management agreed with the findings and recommendations. Management did not
state whether they concurred with the monetary impact; however, in response to
recommendation 1, New York District management reviewed staffing packages and
reduced 54 custodial positions and are further evaluating positions at the Morgan
Processing and Distribution Center. In response to recommendation 2, the Vice
President, Labor Relations, agreed to review the benefits of extending contract eligibility
to large Postal Service facilities in the next collective bargaining agreement
negotiations. See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers both recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
management completes corrective actions. These recommendations should not be
closed in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

cc:       Edward L. Gamache
          Rafael Vias
          Howard Huie
          Katherine S. Banks




                                             3
Custodial Maintenance: New York District                                          DA-AR-09-007



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG’s Maintenance Performance Analyses and Risk Indicator Scans (PARIS)
Model for FY 2008, quarter 4, reported the districts consuming the greatest overtime for
custodial maintenance. The model identified the New York District as one of the top
three districts consuming overtime.

Financial and workhour data for custodial maintenance is tracked under labor
distribution code (LDC) 38. A summary of this data showed that custodial salaries and
benefits for FY 2008 totaled approximately $1 billion nationally.

MS-47, Housekeeping Postal Facilities, establishes the specific criteria for cleaning and
maintaining Postal Service facilities and the methodology for determining the
appropriate staffing levels. The handbook details a three-step procedure for
determining custodial maintenance staffing. Specifically, each site must:

    1. Prepare Postal Service (PS) Form 4869, Building Inventory, which lists the
       internal and external square footage of the facility.

    2. Develop requirements for the frequency of performance using PS Form 4839,
       Custodial Scheduling Worksheet.

    3. Calculate cleaning staff requirements for the building by completing PS Form
       4852, Workload Analysis and Summary.

The three-step procedure should be reviewed and recalculated at least annually so that
required staffing adjustments can be implemented.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service uses its custodial
maintenance resources in the most effective and efficient way in the New York District.
To accomplish our objective, we reviewed and analyzed Postal Service data on
overtime, staffing levels, attrition rates, and outsourcing practices at 12 facilities in the
New York District. As presented in Table 1, the selected facilities accounted for 82
percent of the custodial maintenance costs in the New York District during FY 2008.




                                              4
Custodial Maintenance: New York District                                              DA-AR-09-007



                              Table 1 – Sites Selected for Review

                                                                            Percentage of
                                                    LDC 38 Workhours       District’s LDC 38
                   New York District Site          (Full-time – FY 2008)      Workhours
        Morgan Processing & Distribution                         270,119                  46
        Center (P&DC)
        James A. Farley P&DC*
        Church Street Station                                   50,115                  9
        Madison Square Station                                  23,635                  5
        Bronx P&DC                                              19,543                  4
        Times Square Station                                    19,551                  4
        Grand Central Station                                   23,169                  3
        Murray Hill Station                                     17,949                  3
        Cathedral Station                                       10,407                  2
        Ansonia Station                                         11,969                  2
        Peck Slip Station                                         9,636                 2
        Lenox Hill Station                                        7,990                 2
        Total                                                  464,083                 82
      *LDC 38 workhours for the James A. Farley Building are included in the workhours
      for Morgan P&DC.

We extracted workhour data from the eFlash and payroll systems and schedule
information from the Electronic Maintenance Activity Reporting and Scheduling
(eMARS). The data in these systems were sufficiently reliable to answer our objective.

We conducted this performance audit from August 2008 through April 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on February 24, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The U.S. Government Accountability Office (GAO) issued a report titled, U.S. Postal
Service: Data Needed to Assess the Effectiveness of Outsourcing, on July 24, 2008
(GAO-08-787), related to the objective of our review. The GAO reported that although
the Postal Service had difficulty measuring outsourcing success, it viewed outsourcing
as an important strategy for achieving the cost savings. GAO recommended that the
Postmaster General establish a process to track the results of outsourcing activities that
are subject to collective bargaining and report these results to Congress. The Postal
Service generally agreed with the findings and first recommendation, but not to
providing Congress with information about outsourcing results.



                                               5
Custodial Maintenance: New York District                                          DA-AR-09-007



                                 APPENDIX B: DETAILED ANALYSIS

Frequency of Custodial Maintenance Cleaning

Processing facilities in the New York District perform custodial maintenance tasks an
average of nearly 7 days a week, which requires maximum staff resources. This
condition was less prevalent at stations in the New York District, as shown in Chart 1.
More specifically, our review of staffing packages for the 12 selected sites revealed that
cleaning tasks were scheduled at processing facilities an average of 6.3 days a week,
while policing tasks (lighter cleaning) were scheduled an average of 5.8 days a week.
At stations in the New York District, cleaning tasks were scheduled an average of 4.4
days a week, in addition to policing scheduled an average of 2.1 days a week.

Chart 1 – Average Days Scheduled for Custodial Tasks – New York District




Source: eMARS, February 10, 2009

Postal Service policy allows managers to schedule cleaning tasks from 2 or 3 days to
7 days a week, depending on the task. Managers have less discretion in scheduling
policing tasks, as the policy generally calls for once per tour per day in facilities with two
or more tours. For smaller facilities, policing can be performed on an as needed basis.

Custodial maintenance tasks were scheduled nearly 7 days a week because staffing
packages were not updated annually. Analysis of site staffing packages3 showed the
supporting justification being relied upon dated back as far as April 5, 1999. While
Postal Service officials were able to provide us with more current summaries, they had
not recalculated the staffing need based on these more current summaries, nor had

3
    The staffing package consists of PS Forms 4869, 4839, and 4852.


                                                         6
Custodial Maintenance: New York District                                                           DA-AR-09-007



they updated supporting schedules to reflect current custodial needs. We noted that
despite yearly declines in occupancy and mail volume, building inventories were not
conducted to support the level of custodial need.

Although the New York District has some discretion for cleaning frequencies, it operates
within a Postal Service policy4 in which many cleaning tasks overlap policing tasks and
are duplicative. For example, Table 2 illustrates that the current performance standard
for custodial services lists duplicative or redundant tasks for cleaning and policing
toilets.

                         Table 2 – Toilet Cleaning Performance Standard
                        Cleaning                                                 Policing
Sweep floor, picking up loose paper and trash.*               Pick up all loose paper and trash.
Remove gum spots with putty knife.
                                                              Refill toilet tissue, paper towel, and soap
Wash mirrors, ledges, chrome, and receptacles.                dispensers.

Scrub interior and exterior surfaces, including lips of       Check plumbing and flushing of water closets and
water closets, urinals, lavatories, and multiple              urinals.
sinks.
                                                              Damp wipe water closets, lavatories, and
Damp wipe toilet partitions and doors, toilet room            urinals.
doors, shower stalls, and wainscoting.
                                                              Sweep floor damp mop as needed.
Dust partition tops and high ledges.
                                                              Empty trash receptacles.
Dust windowsills and vents.

Refill toilet tissue, paper towel, and soap
dispensers.

Empty trash receptacles.

Wet mop and rinse floor.**

*Policing redundancies are shown in bold italics.
**MS-47 also provides time for wet mopping as a separate category.

A review of Occupational Safety and Health Administration standards for toilets showed
that reducing the level of cleaning would not affect safety. These requirements focus on
bathroom accessibility, minimizing bacterial hazards, and removing trash obstructions.
The New York District could still meet these objectives by reducing cleaning to alternate
days, because the policing tasks shown above address these standards.

By over allocating staff resources for a cleaning schedule that exceeded the minimum
frequency, the New York District incurred unnecessary workhours and costs, including
overtime. If local conditions permit, reducing cleaning frequencies from 7 to 4 days (still
higher than the minimum requirement) would allow a reduction in labor hours in excess
4
    MS-47, Housekeeping Postal Facilities, Chapter 4.


                                                          7
Custodial Maintenance: New York District                                          DA-AR-09-007



of 118,000 hours at the 12 sites reviewed. This equals a reduction in complement of
approximately 68 positions and a savings of $38,490,629 over 10 years. Because this
expense is avoidable, we will report the amount in our Semiannual Report to Congress
as funds put to better use. See Appendix C for our detailed calculations.

Custodial Maintenance Compared to Contractor Costs

Postal Service guidelines restrict eligibility for cleaning service contracts to small Postal
Service facilities. Larger Postal Service facilities incur increased costs for custodial
services because the hourly rates for full-time employees in the New York District are
$10 higher than prevailing contractor rates. However, the current labor agreement
prevents this cost saving from being fully realized. Specifically, Section 131 of MS-47
states, “Cleaning service contracts are governed by the Administrative Support Manual,
and must be in accordance with the current National Agreements,” which in this case is
the collective bargaining agreement between the Postal Service and the APWU. These
guidelines specify that contract cleaning services can only be used when a vacancy is
the result of an employee’s voluntary attrition, and limit contracts to facilities that meet a
facility size restriction calculated by the union agreement. Facilities that exceed these
parameters are restricted from using contract cleaning services, and must use existing
custodial labor.

For comparison purposes, we reviewed cleaning contracts that covered facilities in the
New York District. These contracts provided custodial services in the offices that met
the labor requirements above. The hourly rate for these contracts ranged from $22 to
$26 an hour, including supervision costs. In comparison, the fully loaded rate for Postal
Service custodians (LDC 38) in the New York District is $36 per hour, based on FY
2008 data.

Although the Postal Service is bound by the current collective bargaining agreement
through November 20, 2010, there is an opportunity to extend cleaning contracts to
larger Postal Service facilities in the next agreement. More use of contract cleaning
services when vacancies occur as a result of employee attrition in large Postal Service
facilities would allow savings of $9,777,316 over the next 10 years. However, we
acknowledge that the cooperation and agreement of the APWU are needed to achieve
these savings. Because these costs are avoidable, we will report the amount in our
Semiannual Report to Congress as funds put to better use. See Appendix C for our
detailed calculations.




                                              8
   Custodial Maintenance: New York District                                                                                                  DA-AR-09-007



                                     APPENDIX C: MONETARY IMPACT CALCULATIONS AND ASSUMPTIONS


   Fiscal Year            2009         2010        2011          2012        2013           2014          2015         2016              2017           2018       2019
Project Year                0            1            2            3            4             5             6             7              8              9            10

Reduce
Cleaning
                                     $3,075,357   $4,513,106   $4,594,342    $4,677,040    $4,761,227    $4,846,929    $4,934,173    $5,022,989     $5,113,402     $5,205,444
3 days per week
(118,864 hours,
normal attrition)


Discounted at
Postal Service cost                   2,971,359    4,213,033    4,143,833     4,075,770     4,008,825     3,942,980     3,878,216     3,814,516      3,751,862      3,690,237
of borrowing
Net Present
Value                  $38,490,629
Convert Postal Service
Labor to Contract Labor  


Saved cost at Postal
Service fully-loaded                               $597,323    $1,824,224    $3,095,100    $4,411,136    $5,773,547    $7,183,576    $8,642,495    $10,151,608    $11,712,248
labor rates
Expended at
contract labor costs                               (432,258)   (1,333,085)   (2,284,019)   (3,287,160)   (4,344,687)   (5,458,858)   (6,632,016)    (7,866,591)   (9,165,103)

Net savings                                         165,064       491,139       811,081     1,123,976     1,428,861     1,724,718     2,010,479      2,285,017      2,547,145
Discounted at
Postal Service cost                                $154,089      $442,979      $706,810      $946,358    $1,162,379    $1,355,613    $1,526,781     $1,676,587     $1,805,719
of borrowing
Net Present
Value                   $9,777,316

Total                  $48,267,945




                                                                                      9
Custodial Maintenance: New York District                                    DA-AR-09-007



              MONETARY IMPACT CALCULATIONS AND ASSUMPTIONS (Continued)

The above calculation of monetary impact is based on specific facts, as well as some high-probability
assumptions derived from the data. These facts and assumptions are as follows.

                                  Assumption                                  Factor
          Fully-loaded rate, LDC 38, New York District, FY 2008                       $35.99
          Contract custodial labor rate, FY 2009                                      $26.00
          Postal Service labor escalation rate                                        1.80%
          Contract labor escalation rate                                              2.80%
          Postal Service cost of borrowing                                            3.50%
          Estimated annual LDC 38 attrition hours in New York Metro                  194,028
          Area
          Estimated annual LDC 38 attrition hours in 12 subject sites                 31,464
          Beginning total annual workhours                                           536,175
          Annual hours saved due to workload reduction, year 1                       118,864




                                                   10
Custodial Maintenance: New York District                           DA-AR-09-007



                               APPENDIX D: MANAGEMENT’S COMMENTS




                                              11
Custodial Maintenance: New York District        DA-AR-09-007




                                           12
